r

:■

CD

%

IN THE SUPREME COURT OF THE UNITED STATES

Russell Rope,

vs.
Facebook, Inc., Apple, Inc., Alphabet, Inc., Twitter, Inc.,
JPMorgan Chase & Co., & John Does 1 to 10,
Respondents,
}■ ■

FILED
On Petition for Extraordinary Writ
Specifically for Writs of Mandamus & Prohibition
FEB 2 6 2020
The United States Court of Appeals for the Ninth Circui ,&
QF THE CLERK
The United States District Court for the Central District of C; rtiiagwWE court, u.sv
#18-55782 & #2:17-cv-04921
IN RE RUSSELL ROPE. [EMERGENCY] PETITION FOR EXTRAORDINARY WRIT
. Russell Rope
#1607 POB 1198
Sacramento, CA 95812
(310) 663-7655
Petitioner hi Pro Per
Originally Submitted @ 2/4/2020
Not Received/Resubmitted @ 2/20/2020
Corrected & ReResubmitted @ 4/14/2020
Corrected & ReReResubmitted @ 5/8/2020
Corrected & ReReReResubmitted @ 6/10/2020

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 1 of 30

.s'

TABLE OF CONTENTS

i

★ CASE SUMMARY.

,3

★ LIST OF PARTIES

5

★ QUESTIONS PRESENTED...........
o & “THE RELIEF SOUGHT”

7

★ INDEX TO APPENDICES.

7

★ TABLE OF AUTHORITIES CITED.

10

OSDS r $ 83-:

I

★ -OPINIONS BELOW.

13

★ JURISDICTION

16

★ CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED

18

★ STATEMENT OF THE CASE.............
o “THE ISSUES PRESENTED”
o “THE FACTS NECESSARY....”

21

★ REASONS FOR GRANTING THE WRIT(s).............. ...........

26

o “THE REASONS WHY THE WRIT[(s)] SHOULD ISSUE”
★ CONCLUSION.

.,....,..30
7

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 2 of 30

QUESTIONS PRESENTED
Whether the Law Extends to All Citizens & Corporations in Modem Times?

★ Whether SCOTUS is ready to take action with integrity to thoroughly answer all of
the questions presented in the Petition for Writ of Certiorari, to investigate issues
raised in the Petition for Rehearing, and/or to award justice to progress?

RELIEF SOUGHT:
★ SCOTUS Takeover by Granting Not Limited to One of These Options for Progress:
o Writ for Local (in Los Angeles) Alternative Dispute Resolution (“ADR”)
o Or Temp. Relocate Petitioner to Washington DC; Through Trial @ SCOTUS
o Or Preferably Writs for Award of The Proposed Relief Sought from ADR
t „

-

.

ir Plus Original Relief that does Not Directly Involve Respondents as Follows
Immediately Requested Writ(s) for Relief from Government Entities:
★ Writ of Mandamus for CalVCB to Provide $100,000,000 of Victim Compensation
o Discretionaiily please, but a lawsuit was filed for this in 2014. It is only a
i.

{

•

f

loan based on inevitable justice funded by money taken from criminals.
Fair regardless of a final civil decision on the case.
★ Writ of Mandamus for SSA to Provide Choice of Custom New Confidential SS#
★ Writ of Mandamus for CIA to Release of Information
o To Petitioner Any & All Information Pertaining to Petitioner &/or This Case

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 7 of 30

★ Writ of Mandamus for Exemption from Pacer Fees

r

★ Writ of Mandamus for Electronic Filing Access @ SCOTUS
★ Writ of Prohibition to Terminate Obstruction; Recusal of Previous District Judges
★ Writ of of Mandamus Requiring Reversal of Quashed Subpoenas
o To Be Served By The Court
★ Writ of Prohibition for “Any & All Law Enforcement” to Terminate Obstruction
o Symbolic Do Your Job or SCOTUS Recognizes The Right To Arrest Anyone
★ Writ of Mandamus to DOJ for Restoration of Right to Bear Arms
o & For Preferable Federal/International CCW/Security Clearance
★ Writ of Mandamus to LASD for Return of Small Pistol & Issuance of CCW Permit
o LASD to Provide Cash for Equal Replacement if Destroyed
★ Writ of Mandamus to Superior Court of California for Termination of both Cases
#ZM025125 and #ZM029514 &/or Anything Mental Health Related
o Copy of All Records, Reports, Transcripts, Evidence, etc. to be Delivered to
Petitioner & Then Permanently Destroyed
o Petitioner Deserves to Know What They Lied About & A True Clean Slate
★ Writ of Mandamus for International Security & Investigation/Support from Secret
Service In Direct Communication with Petitioner; 18 USC §§ 3056 &1030
.★ Writ of Prohibition for Terminate Obstruction @ 9th Circuit
★ Writ of Mandamus for Appointment of Pro Bono (Assistant/Stand By) Counsel To
Assist Petitioner in Either ADR & Discovery @ Central District or @ SCOTUS.

k Plus Relief or Progress Towards ReliefFrom Damages & Punitive as Follows

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 8 of 30

Immediately Requested Writes) for Discretionary Relief from Non-Government Entities:
★ Writ of Mandamus for Transfer of Domain Name “rise.com”
o From [Any Party] to Petitioner; or for Their Arrest Under RICO -

★ Writ of Mandamus for Fair Sale of Real Estate Known as “The Mountain” of BH
o Located @ 1652 Tower Grove Dr., Beverly Hills, CA 90210
o or From [Any Party] to Petitioner Upon Legal Victory
Reduced from Complaint/FAC Relief Proposed as Settlement Offer for ADR:
★ Writ of Mandamus for District Court to enter Judgement in favor of Petitioner and
against Respondents jointly & severally, in the total amount of $100,000,000,000.00
to be transferred via direct deposit(s) into Petitioner’s bank account(s).
\.

★ Writ of Mandamus for 24/7/365 Petitioner access to Respondent system admins for
purpose of stopping violations alleged by Petitioner; to reset settings preventing
users from seeing Petitioner posts; to stop sabotage, hacks, censorship, and
interference with connections, communications, business and personal life; to
permit Petitioner access to private data based on probable cause.
★ Writ of Mandamus or injunction preventing Respondents from doing business
with or providing service to or receiving goods dr services from alleged by
Plaintiff to be conspiring directly or indirectly with the criminal racket in any way
Petitioner deems to be an illegal conflict of interest. Mostly referencing suspects
identified in Exhibit “52” and anything questionable to be presented directly to
Petitioner because discovery post Petitioner victory voids agreement.

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 9 of 30

INDEX TO APPENDICES
APPENDIX A: 18-56782 (Cited & Attached)
• Main Judgment for Supreme Review
• United States Ninth Circuit Court of Appeals
• Dismissed As “Frivolous” On 12/18/2018 @ Docket #24 (or #267 @ CACD)
• Out of Order / Before Appointment of Counsel & Filing Appeal/Brief
• Intentionally Neglectmg/Obstructing Emergency Motion For Reconsideration,
Requests For Explanation, & Corrected Filings
APPENDIXB: 2:17-CV-04921 (Cited & Attached)
• Most Relevant Judgment for Additional Supreme Review
• United States Central District Court of California
• FAC Illegally Dismissed Without Leave To Amend On 5/14/2018 @ Docket #247
• Dismissed With Leave To Amend/Requests Denied 12/20/2017 @ Docket #114
• Entire Docket/All Opinions Should Be Reviewed (Too Much To Print & Mail)
• Failure to State Claim & Res Judicata (Both Lies)
*NEW*APPENDIX H: Neglected Police Reports & False Arrest (Cited & Attached)
• Defense Report Regarding False Arrest By UCLA PD
o Charges(UCLA PD) Rejected by City Attorney’s Office
• Neglected Reports(& Supplemental) to Hollywood LAPD, OIG @ LAPD, BHPD
o Followed Up w/Retaliation Attempted Entrapments/Stalking
Referenced Not Attached; Original Copy Can Be Provided Per Request:
APPENDIX C: BC607769 (vs. Tech/Comm)
• Stanley Mosk Courthouse / Los Angeles Superior Court of California
• Sustained Demurrer Without Leave To Amend On 9/14/2016
• Because Petitioner Was Falsely Imprisoned & Missed Court
APPENDIX D: BC608501 (vs. JPMorgan Chase & Co.)
• Stanley Mosk Courthouse / Los Angeles Superior Court of California
• Defendants Dismissed With Prejudice On 5/23/2016
• Because Petitioner Was Falsely Imprisoned & Missed Court
APPENDIX E: 2:14-cv-04900-VBK-GHK < FMM-UA &
APPENDIX F: 2:14-cv-04232-VBK-GKK < FMM-UA &
APPENDIX G: 2:14<rv-04002-VBK-GHK < FMM-UA
• United States Central District Court of California
• Erroneously Dismissed w/Out Definitive Reason; Because In Forma Pauperis

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 10 of 30

TABLE OF AUTHORITIES CITED
RICO -18 USC § 1962(a)(c)
• 18USC § 1964-CivilRemedies
'
• Johnson v. GEICO Cas. Co., 516 F. Supp. 2d 351 (D. Del. 2007)
• Cited in FAC at Pages 1-4, 70-74
T

•

•

RICO/Civil Conspiracy -18 USC §§ 1962(a)(b)(c)(d) & 1349
• Doctors’ Co. v. Superior Court (1989) 49 Cal.3d 44, citing Mox incorporated v.
Woods (1927) 202 Cal. 675, 677-78.)’ (Id. at 511.) & (Allied Equipment Corp. v.
Litton Saudi Arabia Ltd., supra, 7 Cal.4th at 510-11.)
• Cited in FAC at Pages 74-76
FRAUD- PEN § 470,18 USC § 1001, CIV § 1710, CIV § 3294
• Computer Fraud -18 USC § 1030 (a)(2)(c) & (a)(4),
18 USC § 1030(b), 18 USC § 1030(g)
;
• Computer Fraud & Abuse Act (CFAA) § 1030(a)/(c)(4)(A)(i)(I)-(V)
• 18 USC §1961 Definitions (1)(B)(5)
• Cited in FAC at Pages 77-79
Fraud by Wire, Radio, or Television -18 USC § 1343
• Manual of Model Criminal Jury Instructions for the District Courts of the 8th
Circuit 6.18.1341 (West 1994)
• Cited in FAC at Pages 81-82
Mail Fraud: 18 USC Ch. 63 & Other Fraud Offenses § 1341
• Cited in FAC at Pages 81-83
Criminal Threats - PEN § 422
• Cited in FAC at Pages 84-86
Obscene, Threatening, & Annoying Communications - PEN § 653m
• Cited in FAC at Pages 86-87
Stalking - PEN § 649(.9)
• Cited in FAC at Pages 87-89
Assault & Battery - PEN §§ 240 & 242
• Lowry v. Standard Oil Co. of California (1944) 63 Cal,App.2d 1, 6—7 [146 P.2d 57]
• Cited in FAC at Pages 89-90

Petition For Extraordinary Writ @ SCOTUS;,Case # 19-5616; Page# 11 of30

Espionage - Economic & Personal -18 USC § 1831
• Cited in FAC at Pages 91-92
Theft of Trade Secrets -18 USC §§ 1832 & 1836
• Cited in FAC at Pages 92-94
Obstruction of Justice -18 USC §§ 1510,1513, & 1985
• Cited in FAC at Pages 94-96
False Imprisonment -1240-1: PEN §§ 210.5,236; 42 USC § 1983
• Cited in FAC at Pages 98-99
Peijury-18 USC § 1621; CPC § 118(a)
• Cited in FAC at Pages 99-101
Robbery & Theft/Burglary -18 USC § 2113; PEN §§ 211,484, & 458
• Cited in FAC at Pages 101-103
Attempted Murder (Assault & Battery) -18 USC §§ 1113 & 113
• Cited in FAC at Pages 103-105
Defamation - CIV §§ 44(a)(b); 4546
• Smith v. Maldonado (1999) 72 Cal.App;4th 637, 645 [85 Cal. Rptr. 2d 397]
• Cited in FAC at Pages 106-107
Unfair Competition - CBPC § 17200-17210
Intentional Interference with Economic Relations
• Unfair Competition Law (UCL) 288. CBPC § 17200 et seq.
• (UCL) (Bus. & Prof. Code, § 17200)
• Levine v. Blue Shield of California, 189 Cal. App. 4th 1117,1136 (2010)
• Schwartz v. Provident Life & Accident Ins. Co., 216 Cal. App. 4th 607, 611 (2013)
• Cited in FAC at Pages 107-108
Intentional Infliction of Emotional Distress - Civil Tort
• Hughes v. Pair (2009) 46 Cal.4th 1035,1050—1051
[95 Cal.Rptr.3d 636, 209 P.3d 963]
• Cited in FAC at Pages 108-113

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 12 of 30

Cybersquatting - ACPA @ USC15 § 1125(d)
• Anticybersquatting Consumer Protection Act: 15 USC § 1125(D) Sec. 1125
• False Designations of Origin, False Descriptions, and Dilution Forbidden
• [Fraudulent Misrepresentation]
• Cited in FAC at Pages 111-113
EEO Violations 42 USC § 2000e-2(a)
• Title VII of Civil Rights Act of 1964
• Cited in FAC at Pages 113-114
IN THE SUPREME COURT OF THE UNITED STATES
EMERGENCY PETITION FOR EXTRAORDINARY WRTT(s)
To Be Granted for The Best Reasons

Petitioner respectfully demands, by law and based on life-threatening emergency, not
only that several writs issue for expedited progress in this collective case, but also for
any relief SCOTUS is able to provide without further ado.
5

OPINIONS BELOW
Facts Above & Throughout

CASE # 18-55782: Most relevant to this Petition is the erroneous opinion of the United
States Ninth Circuit Court of Appeals, Which appears at Appendix A to the Petition, is
available at Docket Entry #24, and was filed on 12/18/2019. The not yet existent “Appeal”
was criminally delayed then dismissed as “frivolous” without any explanation because
there was no true justification for that act of inaction. Dismissal in the Ninth Circuit

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 13 of 30

should not be considered a final judgment because something that does not yet exist
cannot be described or labeled as anything dismissable. The appellate court went out of
order to obstruct justice before the actual appeal/opening brief was written let alone
filed because going in order and granting counsel would have made it harder to try and
defraud a pro se litigant with a slam dunk case.

CASE # 2:17-cv-04921: The erroneous opinion of the United States Central District Court
appears at Appendix B to the petition, is available at Docket Entry #114, and was filed on
12/20/2017. Petitioner did everything right, or at least well enough in pro per, proved
everyone wrong, made necessary corrections in the FAC, did everything right again,
proved everyone wrong again, and everything was corrupt. Moreover, the upgraded FAC
and progress with this Petition are proof that Petitioner was and is capable of continuing
to correct alleged deficiencies had they existed in reality. Circuit obstruction supports
District allegations.

CASE # BC607769: The opinion of the Superior Court of California, County of Los
Angeles, Stanley Mosk Courthouse, for a similar but different case against the
Technology Defendants, CEOs, and John Does, appears at Appendix C to the Petition
and was dismissed by sustained Demurrer without leave to amend on 9/14/2016 because
Petitioner was falsely- imprisoned, missed court dates. An appeal was not filed on the

Petition For Extraordinary Writ@ SCOTUS; Case # 19-5616; Page # 14 of 30

1 '

state level because it made more sense to file a single new federal case for everything.
The opinion is easily available on The Court website via civil case search for #BC607769.

CASE # BC608501: The opinion of Superior Court of California, County of Los Angeles,
Stanley Mosk Courthouse for a similar but different case against JPMorgan Chase & Go.,
CEO, and John Does appears at Appendix D to the Petition and was dismissed by
sustained Demurrer without leave to amend on 5/23/2016 because' Petitioner was falsely
imprisoned and missed court dates.. An appeal was not filed on the state level because it
made more sense to file a single new federal , case for everything. The opinion is easily
available on The Court website via civil case search for #BC608501.

CASE # 2:14-cv-04900: The opinion of United States Central District Court for a similar
but different case against The Technology Defendants and John Does appears at
Appendix E to the Petition and was illegally dismissed in 2014 through the screening
process for cases filed in forma pauperis with no specific or definitive reason given and
explanation intentionally neglected. The frivolous opinion of the court is available on
the docket. This case was not dismissed with prejudice..

CASE #2:14-CV-04232: The opinion of United States Central District Court for a similar
but different case against John Doe Domain Name Frauds appears at Appendix F to the
Petition and was illegally dismissed in 2014 through the screening process for cases filed

Petition For Extraordinary Writ@ SCOTUS; Case # 19-5616; Page # 15of30

.

£

in forma pauperis with no specific or definitive reason given and explanation
intentionally neglected. The frivolous opinion of The Court is available on the docket.
This case was not dismissed with prejudice.

CASE #2:14-cv-04002: The opinion of United States Central District Court for a similar
but different case against CalVCB and justice obstructing John Does appears at
Appendix G to the Petition and was illegally dismissed in 2014 through the screening
process for cases filed in forma pauperis with no specific or definitive reason given and
explanation intentionally neglected. The frivolous opinion is available on the docket.
This case was not dismissed with prejudice.

JURISDICTION
The Highest Court Has It

The jurisdiction of SCOTUS is invoked under not limited to 28 USC §1264(1).

Article III, Section II of Hie Constitution establishes the jurisdiction of the Supreme
Court. The Court has original and appellate jurisdiction because the case involves points
of constitutional and federal law, and the United States is a party on some levels.

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 16 of 30

The best-known power of the Supreme Court is the doctrine of judicial review
established in the case of Marbuiy v. Madison (1803). The Judiciary Act of 1789 gave the
Supreme Court original jurisdiction to issue Writs of Mandamus compelling government
officials to act in accordance with the law. Article VI of The Constitution establishes the
Constitution as the Supreme Law of the Land thereby establishing authority to strike
down judgements made in state and subordinate courts.

The Fourteenth Amendment (1869) makes provisions of the Bill of Rights applicable to
the federal and state government not limited to DUE PROCESS and 28 USC § 1651:^
"(a)The Supreme Court and all courts established by Act of Congress may issue all writs
necessary.... agreeable to the usages and principles of law."

SCOTUS Rule 20: "1. Issuance by the Court of an extraordinary writ authorized by 28 U.
S. C. §1651(a)..." is justified by "exceptional circumstances warranting] the exercise of
the Court's discretionary powers, and [] adequate relief cannot be obtained in any other
form." 2. Petitioner in forma pauperis is exempt from fees and copies. 3. (a) Petition
seeks both writs of prohibition and mandamus, identifies court actors against'whom
relief is sought, and details relief sought and not/immediately available in any other
court. Copies of the worst judgments with respect to writs sought, including reference
to related opinions, are appended with other essential documents, (b) Petition was
served with respect to relief sought.

Petition For Extraordinary Writ @ SGOTUS; .Case # 19-5616; Page # 17 of 30

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Justice’s Job is to Preserve Our Rights

First Amendment:
“freedom of speech... of the press.... right of the people peaceably to assemble,
and to petition the Government for a redress of grievances.”
Respondents have been trying to use religion as behind the back false justification and
not limited to judges are suspected of being cast like actors to block this very
fundamental right and as previously explained and described in Exhibit 52. Petitioner is
the modem press(media); which has been his primary business for over a decade, two
plus decades upon consideration of work in college and high school. Not only have
Respondents been censoring Petitioner, but obstruction of justice is resulting in a
censorship where the press as a whole should be taking this very seriously. By cutting
reach and communications, Respondents at this point are being enabled by justice
obstructing judges thereby disrupting the ability to peacefully assemble and petition for
not limited to possible redress from unfortunate corruption.

Second Amendment
“.. .the right of the people to keep and bear Arms, shall not be infringed.”

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 18 of 30

The Respondent racket falsely imprisoned Petitioner on a 5150 hold not limited to for
puipose of infringing on the right to bear arms after illegally delaying a carry concealed
weapon permit Petitioner at the time only tried to acquire because law enforcement was
neglecting serious criminal death threats, all of which resulted in Petitioner being kicked
out of his home and forced to move thereby causing an entire chain reaction of
i

racketeering activity not limited to additions to FAC since Complaint was filed in 2014.
J

Fourth Amendment
“...against unreasonable searches and seizures...”
Petitioner’s firearm was illegally seized. On separate notes: not only did illegal search
and seizure result in more false imprisonments, but obstruction led to illegal searches, to
illegal seizure of Petitioner’s car, which caused grand theft of other physical property not
limited to devices containing intellectual property, and to an illegal arrest at UCLA who
was enabling violations while Petitioner was rightfully using library computers.
;•
;

Fifth Amendment:
“.. .nor be deprived of life, liberty, or property, without DUE PROCESS of law...”

Respondents were originally enabling John Does, then considerately stating Respondents
!_

:'

“coerced” over probably bribed, justice obstructors enabled Respondents, and now

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 19 of 30

SCOTUS until taking just action, is obstructing and enabling justice obstructors, all of
which has been holding Petitioner captive through poverty, denial of service attacks
(hacks), stalking, stealing property, not only on a literal level of false imprisonment, but
stalling and obstructing, which is also depriving Petitioner of normal life and liberty.

Sixth Amendment
. .and to have the assistance of counsel for his defence...”

Petitioner was criminally denied real representation from public defenders when falsely
imprisoned and has only been defending against evil unjustifiable attacks since day one.
Justice .is also being obstructed not only by preventing private counsel, but also through
blocking pro bono assistant/stand by counsel for that “defence” by the Ninth Circuit who
should have appointed requested counsel before considering dismissal.

Eighth Amendment
“Excessive bail shall not be required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.”
.
Obstruction of justice is inflicting cruel and unusual punishment considering all previous
statements and not limited to new and recent violations all of which have resulted in
damages. False imprisonment included excessive bail instead of own recognisance.

Fourteenth Amendment

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 20 of 30

“...nor shall any State deprive any person of life, liberty, or property, without DUE
PROCESS of law; nor deny to any person within its jurisdiction the equal
protection of the laws.”
The big one appears again meaning “due process” is a right so important that it has two
amendments, either of which on their own merit are significant enough reason to issue a
writ. Each time Petitioner mentions obstruction of justice or obstructors, on federal or
state levels, Constitutional violations of DUE PROCESS should be inferred as no court or
attorney has been able to provide a logical explanation for obstruction at any stage.
Case Law: Exception To Res Judicata:
“The United States Supreme Court has stated for at least ninety years that only ‘in
the absence of fraud or collusion’ does a judgment from a court with jurisdiction
operate as res judicata... The exception mentioned by the 4th Circuit in Resolute
Ins. Co.—one for fraud, deception, accident, or mistake—is a classic example...”
The res judicata claim was a deceptive defense that did not fail because of fraud not
regarding crooked judges. Ignoring Petitioner’s response to bogus MTDs based on the
doctrine of res judicata was failure to recognize precedents already set by SCOTUS.

STATEMENT OF THE CASE
Honest Like Abe; Not Frivolous

THE ISSUES PRESENTED:
★ Obstruction of Justice; Not Limited to Due Process Rights are Being Violated
o All Lower Court Judges Conspired to Obstruct Justice

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page #21 of 30

■. *r

o Law Enforcement Conspired to Obstruct Justice
o Filing New Case(s), w/Arrest Warrants, Could Bring Us Back Here
■ Then Justices Could Inevitably Become Defendants
★ Respondents Have Not Stopped Violating Petitioner’s Rights
o New Issues Requiring Amendment or Progress of Justice Leveling the
Playing Field Thereby Creating Leverage for Fair Resolution
■ Specifically, but Not Limited to Real Estate Related Fraud
■ Respondents are Connected to Fake News Swamp FYI

THE FACTS NECESSARY
TO UNDERSTAND THE ISSUE(s) PRESENTED BY THE PETITION:
★ Justice is Mandatory as Petitioner is Being Honest
★ Complaints (Circuit Appeal Not Permitted = Obstructed) & Petitions = Legitimate
★ Justice is Being Obstructed on Every Level
★ The Laws Are Straightforward; All Elements Alleged
★ Clear & Convincing Evidence Supports Claims (Successfully Stated)
★ There is Nothing Frivolous About These (Forewarned) Complaints for Justice
★ Res Judicata is Irrelevant @ SCOTUS Has Overruled As Previously Cited
★ SCOTUS has a Responsibility to Grant Writs for Justice
Petitioner realleges that through an obvious pattern of racketeering activity, conspiring
Respondents, and John Does who have not been dismissed by any court and are possibly
pending amendment into this case, have continued attacking Petitioner and are and
defrauding him of life, liberty, freedom, rights, time, money, relationships, and interstate

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 22 of 30

to international business. Respondents have directly and indirectly caused serious injury
and irreparable damage. The root claim is brought pursuant to The Racketeer Influenced
and Corrupt Organizations Act of 1970 (RICO), Title 18 USC §§ 1961 et seq., and more
specifically under the civil, law cause of action at § 1964(a)(c). Evolving in severity over
at least a decade, Respondents have literally been terrorizing Petitioner in their intent to
sabotage and steal/control both business and personal life through incessant and illegal
actions not limited to fraud, espionage, defamation, grand theft,) harassment, stalking,
threats, physical assault, entrapment, false imprisonment, and obstruction of justice.
Multiple reports have been criminally obstructed and neglected at pretty much all law
enforcement agencies and for no good reason. Irreparable damages to Petitioner include
but are not limited to the killing of relationships, loss of business, money, property, time,
opportunity, and creation and exacerbation of health related issues. Respondents more
recently caused Petitioner to break his foot and interfered with the healthcare process,
then essentially stole his car before stealing his backpack with , laptop, camera, wallet,
etc. They have also stolen two smart-phones, are interfering with carriers’ deliverance of
communications, and all devices contained some data that had not been backed up
because Petitioner regularly creates so much it that it becomes more difficult to keep up
on all the little things, which in some instances are big things, and everything is both
connected and adds up. Respondents are intentionally trying to bleed Petitioner to death
by a thousand cuts in the back while forcing him to watch as others abduct and rape his
pioneering claims where starving him into submission has proved to be impossible. This

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 23 of 30

is much more serious than many instances of attempted murder. Bad karma for what?
Greed and envy are sins not excuses. Respondents/John Does have received money not
only through unfair competition, but also from abuse of power theft exhibited in but not
limited to a very easy to follow paper trail of cash being stolen directly from the
Petitioner’s illegally “terminated” Chase bank account. That money still has not been
returned and damage to excellent credit at the time remains another undeniable proof of
a downward trending non-pre existing Condition rooted in Respondent misbehavior.
They have also invested money and other resources into unfair competition connected to
the enterprise and relevant to intellectual property claims, which has caused serious
problems for Petitioner. Injury is of a personal, social, and commercial nature. The
enterprise affects interstate Commerce in that both parties conduct business nationwide
to internationally. Direct causation of damages is proven by clear and convincing facts
and evidence. The injuries were proximately caused and would not have occurred but
for the activity of the enterprise first noticed at Facebook, which is where the nexus to
affairs connecting the conspiracy and pattern of racketeering activity appears to have
emerged and spread to neighboring Respondents. Regardless of where attacks may have
technically started, Facebook was the first recognizable trigger pulling enabler, and the
main connection between Petitioner’s layers of personal and professional networks, all
of which have been affected. Respondent John Does have only been able to commit
many or most if not all offenses solely by virtue of their positions in the enterprise and
connections to Respondent (inclusive to other John Doe) corporations where power is

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 24 of 30

still being criminally abused. The case is currently in a frozen state here in SCOTUS
because of DUE PROCESS disruption as if both Respondents and obstructors think
Petitioner is going to tragically more than magically disappear or forgive the unforgivable
while submitting to peonage with Respondents not getting out of the way of this
goodness.

Respondents and corrupt court actors have been trying to cheat Petitioner

out of his days in court through trickery that has probably plagued less intelligent pro se
litigants for too long; beyond time to move forward.

Further Satisfying Rule 20: All judges assigned to ,this case appear not only to have been
individually cast like bad actors based on what was labeled "name hacks" corresponding
to evidence linked to the FAC, but also, to act like a jury of one-sided attorneys protecting
Defendants with stall tactics and illegal dismissals. Please recuse relevant judges and
take over @ SCOTUS or issue Writs of Mandamus and Prohibition for recusal and relief,
or progress as requested, appointment of standby counsel @ 9th Circuit and Discovery
and ADR @ Central District. Judges who should be no,less than removed from this case
should include all who touched any of Petitioner’s cases not . limited to the following
most relevant and served:
•
•
•
•
•

Edward Leavy, Senior Circuit Judge @ 9th Circuit
Jay Scott Bybee, Senior Circuit Judge @ 9th Circuit
Andrew David Hurwitz, Circuit Judge @ 9th Circuit
Michael Walter Fitzgerald, District Judge @ Central District
Paul Lewis Abrams, Chief Magistrate Judge @ Central District

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 25 of 30

\*

REASONS FOR GRANTING THE PETITION
Human Rights + The Law of Our Land & Beyond

WHY THE WRTT(s) SHOULD ISSUE:
★
★
★
★
★
★
★

This is the LAW & it is JUST
A Purpose of RiCO Permits Civilians to End a Majority Criminal/Corrupt Mob
Original SCOTUS & Lower Court Denials Were Not Supposed to be Discretionary
This is Extraordinary Over Discretionary
Obstruction of Justice is Criminal; Not Discretionary @ Any Level
Save Time.... is Life & Liberty Depend On It
Set Good Example of Peaceful Conflict Resolution

DUE PROCESS deals with the administration of justice and acts as a safeguard from
arbitrary denial of life, liberty, or property by the government outside the sanction of
law. Not limited to Central District and Ninth Circuit violated this Constitutional right
through unacceptable obstructions. No one should ever be victimized by The Court or
other authorities like this, and punishment for obstructors should be a precedent setting
deterrent; could become an arbitrary decision that ADR or orders granting relief leave
solely to discretion of the government. Additionally, the' court should enable e-filing for
pro se Petitioner(s), for reasons not limited to in forma pauperis not undergoing
impractical financial burden of unnecessarily printing and mailing documents. Petitioner
filed documents and motions for not limited to e-filing access that are not on the docket.
There is too much room for interference in obsolete ways that need digital upgrades @
SCOTUS; simultaneously, it is outrageous that Petitioner has not been able to have a

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 26 of 30

face-to-face conversation with a judge in four separate courts over six years of suffering
since filing with countless pleads for support from all authorities and evidence on the
docket since day one. WTF!? SCOTUS needs to create or sustain a precedent that
people in positions of power and authority have to follow, for the wellbeing of The
People,

1h

of whom have a reliance upon an untainted justice system, secure

communications, and honest information technology. The law needs to be applied
equally to all including corporations. The odds of a squeaky wheel getting oiled and
• s'

entertained by SCOTUS become more favorable to Petitioner in the escalation of levels
from Certiorari to Rehearing to Extraordinary and not only because the rules give
priority to the extraordinary based on the Emergency Application. Factor in quality,
divided by the effect of limited resources, plus pro se, multiplied by in forma pauperis
status, and please terminate any doubt of righteousness. Conflicts of law are present and
SCOTUS has to step in and decide this case not only so all areas of the country can then
operate in unison, but to stop the powers that should not be from abusing others, and
also so we do not end up here again because Petitioner had to refile against other
Respondents connected to the enterprise. This case is most important, a major.social
issue, and more pertinent than unusual. SCOTUS should also hear it because lower
courts exhibited disregard for past decisions and Constitutional rights. This Court is
supposed to liberally construe pro se allegations as the 1972 SCOTUS precedent Haines
v. Kemer dictates. The Judiciary Act of 1789 states that "in all courts of the United
States, the parties may plead and manage their own causes personally.", It follows that

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 27 of 30

federal judges must respect the pro se litigants' right to represent themselves. Thus,
SCOTUS has means to remedy the problems with judges who disrespect and ignore the
aforementioned rights. By law, every federal judge takes an oath affirming to "administer
justice without respect to person [or government employee, or corporation], and do
equal right to the poor and to the rich," and to "faithfully and impartially discharge and
perform all the duties incumbent upon me as Judge under the Constitution and laws of
the United States." Petitioner took the right actions to secure a position that must be
honored,

SCOTUS needs to disrupt violators for reasons not limited to what was

, referenced in prior Petitions inclusive to this “extraordinary” and fine tuned straight to
the point version. Petitioner still believes in writing the future can create change, that
this case can be used as foundation for ridding our society of evil while making a
statement that the American dream is still very much alive. Petitioner and Respondents
in collaboration could end and prevent both present and future crimes not limited to
online. SCOTUS can affirm that all citizens have equal rights while shedding new lights
on grey areas of the law where discrimination such as false entitlement based on birth
order, ageism; relationship or parental status, and religious intolerance; none of which
are acceptable.

Much of this can be accomplished simply by granting relief and

permitting Petitioner’s success. There is much more to possibly discuss or amend, some
of which has been previously mentioned elsewhere as a prequel to elaboration, is
pending Discovery, or we can preferably end conflict by focusing on solutions. Do not
deny this moral excellence. Trust the OG to MAGA. Petitioner originally proposed a

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 28 of 30

very thoughtful solution in Complaint and has offered Respondents generous equity in
exchange for what are going to be record breaking direct deposits. A new and more
enticing offer was also laid out on the settlement table that enables Respondents to share
financial losses with Does while conditionally relieving amenable parties from adverse
action, but that offer has an expiration date of when Petitioner can see the finish line
being any progress in this has been an inevitable Petitioner win since the beginning; also
excludes new violators post cease and desist attached to said offer. Respondents are
encouraged to file support for this as Petitioner does not intend to settle for anything less
than not filing for arrest warrants and is presenting viable solutions. Respondents
should be punished from no less than the equivalent of their own perspectives as to deter
from future wrongdoing; and faced with a choice between losing their business and
freedom, or in taking serious dents to finances and power; plus loss of the domain name
that should not be in possession of anyone other than Petitioner, and now real estate that
would have been afforded to Petitioner if not for finance, real estate, arid justice
obstructing RICO fraud in play since before the property hit the market. Respondents
and John Doe for no legit reason more than tried to take the Petitioner’s life, time,
freedom, business, money, relationships, physical and intellectual property. They tried
to steal everything and therefore should be required to give up anything. Petitioner,
unlike other parties, is always good, a proven* provider of solutions, and will put the
money, domain name,, land, and power to honorable use. Please open the flood gates of
communication, ask your own questions, or simply permit access to progress. >

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 29 of 30

i

CONCLUSION
Due Process & Justice For All

Times have changed, and precedences must be set or maintained in order to uphold the
sanctity of our Constitution and liberty. There are real solutions to big problems with a
vision greater than presented, in this instance coming from Petitioner in pro per who also
happens to be an expert witness with an elite foundation. Our government would be
foolish not to align with rare expertise and a once in a lifetime opportunity for truly
representative of The People access that is unique to Petitioner’s self-made indepence.
We need modem checks and balances that extend to Respondents’ corporations. This
case can create at some order where it does not but should exist, and with relief sought
being granted, will do so while remaining above any influence. Petitioner can go into
detail regarding any statement or claim with a preponderance of proof in support of this
reality. Years of legal work could take much longer if this goes through trial and there is
no excuse for delay. Time is most precious. Please immediately terminate obstmction
of justice and exercise your discretionary power by granting as much relief as possible.
There may not be a time limit on a Petition for Extraordinary Writ, but there is a time
limit on life.

Please reconsider previous Petitions, the FAC, everything on the

dockets/lodged, and issue writs for the extraordinary rise to success.

/s/RUSS]
6/10/2020
Petitioner & Petitioner In Pro Per
Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 30 of 30

CASE SUMMARY
Proper Pro Per Complaints; Terminate Obstruction

Petitioner is filing this Petition for Extraordinary Writ(s) seeking multiple mandates; as
many as SCOTUS is willing to issue, individually given consideration, requested with
hope and intent for an as prompt and peaceful as possible resolution to a complicated
conflict that has for too long been relentlessly and criminally attacking Petitioner
through a pattern of racketeering activity evolving into toxic culture as coercion and
bribes are suspected to have obstructed justice thereby permitting evil to grow.
Petitioner requires relief from SCOTUS that terminates hate with what is good and legal.

Briefly and distinctly stated, this Petition is necessary, not limited to grounds not
previously presented, but delivered in a remixed fashion and minus pages of words, cut
back so SCOTUS can focus on progress first, but also including a new Appendix H.in
support of the urgent need for SCOTUS to step in, is based on constitutional due process
rights being violated, by extraordinary discretion affording more leniency to the
impractical situation, life still in danger, and humanitarian rights of citizens at stake.
Petitioner stands by the previous statement about anything that cannot be explained is
usually wrong, or worse being deceptive concealment aka fraud. Petitioner knows that
no explanation is often the case when denied in SCOTUS, and while The Court probably
tends to be correct, this “extraordinary” crisis situation demands attention from the

Petition For Extraordinary Writ @ SCOTUS: Case # 19-5616; Page # 3 of 30

Justices in direct communication with Petitioner; electronic filing, and if necessary oral
argument, are again requested over further blocks because there is immediate reliance
on communication and concealment of requested information and neglect for relief
sought are causing damage. Moreover, this Petition is accompanied by a separate but
connected Emergency Application, which according to SCOTUS rules, requires the
assigned Justice to make specific notations thereby rendering explanation mandatory.

The Complaint is REAL and Petitioner has been following the rules. No one has
questioned or directly criticized the authenticity of claims, accusations have not been
denied by Respondents, - and continuous violations have not stopped. Petitioner hardly
reported all the terrible things Respondents have done, tried to do, caused, or tried to
cause. Due Process must trump obstruction. Incessant attacks technically continue to
extend the process and Statutes of limitations where evolution calls for emergency
resolution. Respondents keep using the same tactics with different actors, expecting
different results, but mostly indicating an inevitable error causing tragedy, and their
incompetence is truly insanity not generating results other than leaving a trail of clear
and convincing facts and evidence proving the obvious pattern of racketeering activity.
The entire defense, not limited to what is docketed, is fraud; a misdirecting framework
based on bluff fluff and criminality such as trying to make the witness/Petitioner
disappear by false imprisonment. The framework of The Constitution is what matters.
Justice has been obstructed on every level and the highest court must overrule all the
lies.

What is to stop Respondents from obstructing justice again in another case?

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 4 of 30

SCOTUS needs to end the cycle before it restarts. Enough is enough. The Petition(s),
Complaint(s), & Appeal are not “frivolous” and claims were successfully stated in the
FAC if not Complaint, certainly well enough for a judge to recognize a right to legal
remedy. SCOTUS must grant progress now, which is in the best interest of the USA
because it will be an example of civil resolution that also sets questionable truths
regarding our rights in stone. Denying this case is like killing the American Dream,
which is still kicking and screaming for a fresh breath of justice.

Modem issues

regarding this case that also affect society need to be addressed by law. Very serious
problems require no less than thorough investigation, which would certainly turn up
more evidence in support of existing claims and give way to possible solutions regarding
not limited to additional issues raised in the Petition for Rehearing and draining “The
[Not Limited To Fake News] Swamp,” which is connected to relevant abuses of power.
This Petition is presented in great faith. Please grant fair and vital justice as proposed.

LIST OF PARTIES
Requires Option to Amend if Necessary

A. PETITIONER:
Russell Rope is an honest, hardworking, law-abiding citizen fighting for our rights,
introduced himself in the previous Petition for Writ of Certiorari, and has a blog with
more relevant information in the about section @ mssellrope.com/blog/?=30.

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 5 of 30

B. RESPONDENTS:
1. ABSOLUTELY “IDENTIFIED” & FILED AGAINST RESPONDENTS:
• Facebook, Inc. is located in Menlo Park, CA.
• Apple, Inc. is located in Cupertino, CA.
• Alphabet, Inc. is located in Mountain View, CA.
• Twitter, Inc. is located in San Francisco, CA.
• JPMorgan Chase & Co. is located in New York, NY.
• John Does Possibly To Be Amended (Sealed Exhibit 52)

2. MORE THAN SUSPECT & UNKNOWN DEFENDANTS:
• Suspect John Doe Mark Zuckerberg, CEO @ Facebook, Inc.
• Suspect John Doe Sean Parker of Not Limited to @ Facebook, Inc.
• Suspect John Doe Peter Thiel of Not Limited to @ “PayPal Mafia”
• Suspect John Doe Tim Cook, CEO @ Apple, Inc.
• Suspect John Doe Lariy Page & Sergey Brin @ Alphabet, Inc.
• Suspect John Doe Jack Dorsey, CEO @ Twitter, Inc.
• Suspect John Doe James Diamon, CEO @ JPMorgan Chase
• Suspect John Doe Tom Tate allegedly located in Sunnyvale, C
• Possibly To Be Amended HP, Inc. is located in Palo Alto, CA
• Possibly To Be Amended Anonymous For Security & Pending Discovery

Petition For Extraordinary Writ @ SCOTUS; Case # 19-5616; Page # 6 of 30

